Appendix A 1

2019 WL 4725184 (Table)
Only the Westlaw citation is currently available.
Supreme Court of New Jersey Petitions for Certification. This
disposition is referenced in the Atlantic Reporter.
Supreme Court of New Jersey.
Michael [s'. !bARTH, Plaintiff-Petitioner,
v.

BERNARDS TOWNSHIP, David Centrelli, Individually and in
His Official Capacity as Bernards Township Assessor, Somerset
County New Jersey, Somerset County Board of Taxation, Robert
M. Vance, Individually and in His Official Capacity as Somerset
County Tax Administrator, John M. Lore, Esq., Individually and in
His Official Capacity as President of the Somerset County Tax
Board, Defendants-Respondents.
C-73 September Term 2019
082827
September 20, 2019
ORDER
*1 A petition for certification of the judgment in A-004118-16
having been submitted to this Court, and the Court having
considered the same;
It is ORDERED that the petition for certification is denied, with
costs.
All Citations
Slip Copy, 2019 WL 4725184 (Table)

Appendix A 2

2019 WL 1111133
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK COURT RULES BEFORE
CITING.
Superior Court of New Jersey, Appellate Division.
Michael S. BARTH, Plaintiff-Appellant,
v.
BERNARDS TOWNSHIP, David Centrelli, Individually and in
His Official Capacity as Bernards Township Assessor, Somerset
County New Jersey, Somerset County Board of Taxation, Robert
M. Vance, Individually and in His Official Capacity as Somerset
County Tax Administrator, John M. Lore, Esq., Individually and in
His Official Capacity as President of the Somerset County Tax
Board, Defendants-Respondents.
DOCKET NO. A-4118-16T4
Submitted February 26, 2019
Decided March 11,2019
On appeal from the Tax Court of New Jersey, Docket No. 03682016.
Attorneys and Law Firms
Michael S. Barth, appellant pro se.
DiFrancesco, Bateman, Kunzman, Davis, Lehrer & Flaum, PC,
attorneys for respondents Township of Bernards and David Centrelli
(Martin Allen, of counsel; Edward W. Purcell, on the brief).
Gurbir S. Grewal, Attorney General, attorney for respondents
Somerset County New Jersey, Somerset County Board of Taxation,
Robert M. Vance, and John M. Lore (Melissa H. Raksa, Assistant
Attorney General, of counsel; Michelle Capistrano Foster, Deputy
Attorney General, on the brief).
Before Judges Fisher and Suter.
Opinion
PER CURIAM
*1 Plaintiff was once the beneficiary of a farmland tax
assessment because the property taxing authority believed he
harvested maple syrup on his Bernards Township property. In 2014,
that assessment was revoked and rollback taxes1 were imposed,
eventually leading to plaintiffs appeal to the Tax Court, which
ultimately rejected plaintiffs position because he refused to permit

Appendix A 3
an inspection of his property. After careful review of the record and
the parties’ arguments, we affirm the dismissal of his tax court
action.
The relevant facts may be briefly summarized. In October
2014, the tax assessor informed plaintiff that his property did not
qualify for the farmland assessment because plaintiff failed to
provide proof demonstrating income through farming. The county
board of taxation initiated a complaint, pursuant to N.J.S.A. 54:423.8, to invoke rollback taxes for 2013 and 2014 due to the
property’s change in status. Plaintiff was given notice and a hearing
was scheduled, at the conclusion of which the county board entered
a judgment assessing rollback taxes in the amount of $ 4,953.99.
In January 2016, plaintiff appealed that determination to the
Tax Court; he also sought relief against the township, the assessor,
the county board, the county tax administrator, the president of the
tax board, and tax board commissioners. Plaintiff claimed, among
other things, that these defendants were liable for “abuse of process,
harassment, and negligence.” And he asserted the
unconstitutionality of the procedures that led to the rollback
assessment.
By motion, the Tax Court granted summary judgment in
March 2016 dismissing with prejudice all plaintiffs claims for
monetary damages. What remained was plaintiffs appeal of the
rollback determination, as to which the township was the only
remaining party.
The township moved in September 2016 to dismiss because
plaintiff failed to provide answers to interrogatories or allow
inspection of the property. The motion was granted but the action
later reinstated. When plaintiff remained recalcitrant in discovery,
the township again moved for dismissal. As the result of a hearing
in January 2017, an order was entered that required plaintiff to
provide the unanswered discovery requests and to allow an
inspection of the property on February 28, 2017.
Plaintiff, however, refused to permit an inspection as
ordered. Even though he had already been accommodated and the
inspection delayed until the winter harvesting season, plaintiff
claimed the inspection could not occur when ordered because the
2017 season abruptly ended due to unseasonably warm weather. The
Tax Court granted the township’s motion to dismiss with prejudice,
concluding that plaintiff “intentionally failed to comply with the

Appendix A 4

discovery order and that dismissal of the complaint [was] the
appropriate sanction.”
*2 Plaintiff appeals, arguing:
l. THE TAX COURT ERRED IN GRANTING
SUMMARY JUDGMENT TO DEFENDANTS, DENYING
PLAINTIFF’S CROSS-MOTION FOR SUMMARY JUDG[
]MENT, AND DISMISSING PLAINTIFF’S COMPLAINT.
n. TAX COURT ERRED IN APPLYING GENERAL MOTORS
CORP. v. CITY OF LINDEN, 150 NJ. 552 (1996) THAT IN
EFFECT GRANTED A COMMON LAW RECOGNITION OF A
KANGAROO COUNTY TAX BOARDS, AND AS A RESULT,
SHOULD RESULT IN ALLOWANCE OF THE OWNER OF A
FARM ORGANIZED AS AN LLC TO REPRESENT
THEMSELVES PRO SE.
m. TAX COURT[ ] PROCEDURES WERE AS
UNCONSTITUTIONAL SIMILAR TO THE SOMERSET
COUNTY TAX BOARD.
IV. SUBSTITUTION OF COUNSEL SHOULD NOT BE
PERMITTED WHEN COUNSEL ATTEMPTS TO MISLEAD
THE COURT ON THE SEQUENCE OF SUBSTITUTION AND
INTERFERENCE WITH DISCOVERY.
We find insufficient merit in these arguments to warrant
further discussion in a written opinion, R. 2:11 -3(e)(1)(E), and
affirm substantially for the reasons set forth by Judge Patrick
DeAlmeida in his thoughtful and well-reasoned opinions on the
motions that produced the orders under review.
Affirmed.
Footnotes
1.
Rollback taxes represent “an amount equal to the difference,
if any, between the taxes paid or payable... and the taxes that would
have been paid or payable had the land been valued, assessed and
taxed as other land in the taxing district in the current tax year (the
year of change in use) and in such of the two tax years immediately
preceding, in which the land was valued, assessed and taxed [as
farmland]” N.J.S.A. 54:4-23.8 See also NJ. Tpk. Auth. V. Twp. of
Washington, 137 N.J. Super. 543, 547 (App,. Div. 1975), aff’d o.b.,
73 N.J. 180 (1977).

Appendix A 5
April 29, 2019
Michael S. Barth
P.O. Box 832
Far Hills, New Jersey 07931
(917) 628-6145
New Jersey Supreme Court
R. J. Hughes Justice Complex
Supreme Court Clerk’s Office
P.O. Box 970
Trenton, New Jersey 08625-0970
Re: Michael S. Barth v. Township of Bernards et al.
Appellate Division Docket No.: A-0004118-16T4
Supreme Court Docket No.
Dear Honorable Justices of the New Jersey Supreme Court,
Please accept this letter memorandum and appendix as
consistent with the Rules of Court in support of the undersigned
Notice of Appeal, Petition for Certification, and a Notice of
Motion to file these pleadings as within time. The reasons are
many for granting the relief requested and for the New Jersey
Supreme Court hearing this matter.
This is an appeal of litigation that by admission of
Bernards own legal counsel, should never have been initiated by
Bernards. Nearly four years ago, Bernards’ counsel admitted that
his client filed a “roll-back complaint” against Barth on an
incorrect understanding of the law. Specifically, Martin Allen
stated his client David Centrelli filed a roll back complaint on a
subsequent admitted incorrect assumption that no proof of income
automatically entitled Bernards to roll-back. From Bernards own
business records, while a farmer may not have provided proof of
income, clearly there was no change in land use. (See e.g., PA1).
Specifically, Bernards mistakenly filed a rollback claim in August
2014, for 2014 and 2013 when on October 30, 2014, they denied
farmland assessment for 2015 on an income basis only, and not a
change in farming activities. (Pa2). A memo addressed to Tax
Court Judge DeAlmeida’s also put him on notice on Appeal, when
the notice spelled out that a filing of such a rollback complaint was

Appendix A 6

impermissible as a matter of law. (PA3-4). Accordingly, the
Somerset County Tax Board lacked subject matter jurisdiction to
hear a roll back complaint filed by Bernards against Barth. The
parade of horribles that followed Martin Allen’s bad legal advice
to David Centrelli were completely avoidable, starting with the
many County Tax Board unconstitutional defects.
The New Jersey Department of the Treasury was critical
itself of the Somerset County (deficient) Tax Board procedures.
(PA5-6.) Specifically, the Treasury Department indicated the
“notice” Barth received of a roll back complaint was
unconstitutionally vague and deficient and suggested constitutional
due process concerns be raised in a separate lawsuit.1 When
Bernards was pressed why Barth only received page 1 of a twopage complaint, Centrelli wrote, page two is “only the
instructions.” (Pa7-8). Neither Centrelli nor Vance were competent
enough to know the “page 2” of the complaint cited incorrect and
outdated statutory authority. Perhaps it is no surprise that
incompetent Vance dropped the unconstitutional “complaint and
notice” in the mail and as he said, went on vacation, and was not
around to answer questions of his incompetence and the frivolous
complaint filed until the morning of the so called hearing
scheduled for the day after Labor Day. (Pa7-8, See also Pa9).
No surprise the Somerset county tax board’s procedures
were as unconstitutionally defective as was the unconstitutional
notice. (Pa 10-13).
This included the fact that incompetent Vance failed to
follow through on his statement he would have Bernards provide
Barth with documents Bernards expected to rely upon at the Board
hearing.
1. This included the fact that the Tax Board has no voir dire
process for questioning of tax assessor complainants or witnesses,
because the incompetent tax board president (Lore) did not know
the difference in valuation witnesses and farmland assessment
standards, and because he did not know that no proof of income
did not automatically entitle a township to roll back, until Barth
1 Subsequently the Tax Court seemed to have a foggy view of its
own subject matter jurisdiction. The Treasury’s Division of
Taxation has certain authority over the County Tax Board, and has
the ability to revoke Centrelli’s assessor’s license.)

Appendix A 7

cited a case that Lore obviously looked at during a break in the socalled “proceeding”.
2. This included the fact that the same incompetent counsel Martin
Allen who gave his client bad legal advice to file an unsupported
roll back complaint, only asked his client valuation questions on
direct examination, and on direct examination did not ask any
farming activities questions for farmland assessment on direct
examination.
3. This is also consistent with Martin Allen’s opening [incorrect]
statement that he believed that no proof of income automatically
entitled the township to roll back taxes.
4. This included the fact of what President Lore must have learned
in some type of unconstitutional law class, that is, to hold up his
hands to prohibit an objection by Barth, (to avoid being recorded),
when Martin Allen, after Barth’s cross-examination of Centrelli’s
direct testimony that was only on valuation, said in effect, “oh, I
forgot to ask farmland assessment activity questions on direct”,
when under basic principles, if counsel fails to ask questions on
direct, and opposing counsel does not bring up on crossexamination, that initial counsel cannot bring up new topics on re­
direct.
5. The Court can tell by Martin Allen’s own pleadings below that
his client’s re-direct testimony on farmland assessment activity
was declared net opinion by the County tax Board.
6. Finding of Centrelli’s opinion as net opinion is consistent with
the subsequent documented recanting of Centrelli’s testimony
before the County Tax Board, that is, Centrelli admitted he lied
before the County Tax Board about farming activities on Barth’s
property during the year’s in question, when in actuality Centrelli
said Barth’s property was properly farmed all along. (This
testimony was during the “re-direct” phase when Martin Allen
admitted he forgot to ask farming activity questions on direct, and
Barth didn’t ask on cross, and Barth objected to Allen attempting
to ask new subjects on re-direct.)
Applying the New Jersey Supreme Court recent opinion In
Re Accutane. 234 N.J. 340 (2018), because the only testimony
Bernards presented to the county tax board on farming activities
was ruled net opinion, and because valuation was not at issue, the
county tax board finding of roll back taxes for Bernards is null and
void. In addition, because Bernards introduced no evidence into

Appendix A 8

the record before the County Tax Board, and because they had no'
competent testimony that was accepted on farmland assessment
farming activities, and because counsel admitted the roll back
complaint was filed on an incorrect understanding of the law,
Bernards failed to satisfy its burden of proof before the county tax
board. (Citation omitted.)
Of no surprise was that the County Tax Board refused to
provide a copy of the recording of the hearing, that the tax board
purchased equipment to record such “hearings”. (Pa 14-15).2
The Courts have widely held that where everything goes
against a party, as here against Bernards, and a “tribunal” rules in
favor of that party anyway, obviously something “is up.” Here as
the record reflects, the County tax board also had a conflict of
interest with the law firm representing Bernards, as the President
of the Board, and the principle of the law firm representing
Bernards, are Somerset county “co-workers,”3 and under Piscitelli
v. City of Garfield Zoning Board of Adjustment. 2019 WL
1371557 (NJSC, March 27, 2019) an additional reason for
declaring the Tax Board decision null and void. That conflict of
interest appears consistent with Barth’s documented incident
nearly decades earlier, where before the same board, the first thing
Martin Allen said was that he and President Lore were talking (ex
parte) about the case before the hearing. (See NJAD Pleadings
Below.) All the law and facts supported finding for Barth except
that President Lore had to bail-out his buddy’s legal mistake to
avoid his buddy’s being responsible for advising his client to file a
frivolous suit.
Not only were the County Tax Board procedures were
unconstitutional, but Judge DeAlmeida’s tax court’s definition of
“an appeal” of a county tax board decision is not of any

2 The Court should demand an investigation into whether the
administrator lied about there being a recording, in that the
Attorney General’s Office appears to have a conflict of
interest in its responsibility to protect the public, when the
Attorney General’s office is more interested in trying to save
the state from paying out monies for the corrupt acts of state
officials.
3 Conflict of interest details were briefed below.

Appendix A 9

constitutional due process to Barth, but rather the equivalent of a
distorted civil double jeopardy, as it only gives Bernards a second
bite at an apple after its blatant and perjured failure at a mock trial
before the county tax board, and one that shifts the burden from
Bernards to Barth is an unconstitutional mockery that the Tax
Court seemed to embrace with loving arms.4 In effect, the tax court
unconstitutionally creates subject matter jurisdiction for a tax
board that does not constitutionally exist.
QUESTION PRESENTED
The main question in this case is whether there are
adequate procedures to reverse the judgment of the Somerset
County Tax Board, because if the Court does not accept this case
and does not reverse the judgment of the Somerset County Tax
Board, then by definition there are not adequate state procedures in
place under General Motors Corp. v. City of Linden. 143 N.J. 336
(1996), and the matter should be certified to the United States
Supreme Court under National Private Truck Council v. Oklahoma
Tax Commission. 515 U.S. 582 (1995). This question merely
scratches the surface of the underlying issues that relief on the
page limitations would be needed to further brief the remaining
sub-questions.
Perhaps at this conjuncture with all due respect,
considering the Supreme Court’s decision in Piscitelli, supra, it is
not clear whether under General Motors Corp. v. City of Linden. .
143 N.J. 336 (1996), this court can be independent in a review of a
decision by Judge DeAlmeida, considering he was promoted by
Chief Justice Rabner to an Appellate Division position (reference
omitted), and that promotion was not by advice and consent, as
would a federal district or federal appellate judge (reference
omitted), and whether because of that seemingly lack of
independence, whether since it appears there are not adequate state
procedures, this matter should be certified to the United States
Supreme Court as an exception for review under National Private
Truck Council v. Oklahoma Tax Commission. 515 U.S. 582
(1995).
4 Ironically the Tax Court complained Barth filed a complaint
with the Tax Court’s own form, and based on defective forms
before the County tax Board it is clear someone in the Tax
Court administration “fell asleep at the wheel.”

Appendix A 10

There are a number of subsets questions to the Question
presented that are laid out in principles described in this letter
memorandum that are also reflected in the Appellate Orders on
Appeal:
1. April 1, 2019 Order Denying Motion for Reconsideration
(Pa 16);
2. March 11, 2019 Order Affirming Tax Court Dismissal with
Prejudice (Pal7);
3. December 7, 2016 Order denying Motion for Interlocutory
Appeal (Tax Court Order Dismissing Complaint without
prejudice). (Pa 19).
4. July 7, 2016 Order denying Motion for Interlocutory Appeal
(Substitution of Counsel.) (Pa 20).
5. Note: Judge DeAlmeida explicitly told opposing counsel on a
conference call to not send a copy of the Case Management Order
to this party, and the Tax Court itself did not send this party a copy
of the Case Management Order. Presumably Judge DeAlmeida did
not want this party to appeal his defective case management order,
as Judge DeAlmeida stated in effect, “he holds it against those that
file interlocutory appeals of his orders.” (Reference omitted.)5
Those subset questions to the Question Presented are also
equally laid out in principle of the Tax Court “Orders” “Appealed
to the Appellate Division that include:
1. 2016/03/31 Order Dismissing Barth’s Complaint With Prejudice
(Pa 21).
2. 2016/12/21 Tax Court Rule 4:23-5(a)(2) letter “subpoena” for
Barth (only) to testify (Pa 22).
3. 2017/02/06 Case Management Order that Judge DeAlmeida
intentionally kept from sending to Barth (Pa 23).
4. 2016/10/14 Order of Dismissal without Prejudice (Pa 25).
5. 2016/05/17 Order on (Martin Allen’s “Ex Parte”) Motion
Granting Leave to substitute Counsel (TCNJ) (Pa 26).
6. 2016/03/04 Order Denying Barth’s Motion for Summary
Judgement (Pa 27).

5 The Court should consider sending a referral to another body to
investigate Judge DeAlmeida refusal to send this party a copy of his case
management order. (Reference omitted.)

Appendix A 11

7. 2016/03/04 Order Granting David Centrelli’s Motion to Dismiss
with Prejudice (Pa 28).
8. 2016/03/04 Order Granting State’s Motion to Dismiss (Pa 30).
In many ways there is little to analyze of the Appellate
Division reasoning in its rubber stamping the decisions of the Tax
Court. However, the motion for reconsideration summarizes a
sufficient number of the flaws below for this Court to find in favor
of this party to be further briefed.
As the various Appellate Division orders show, there were
a number of appellate judges who reviewed this case. In doing so,
there seems to a flaw in the application of the Court rules for
reconsideration when the Motion for Reconsideration is not
presented to other judges other than the last two judges who ruled,
when other judges who ruled favorably for this party on
interlocutory motions were not given a chance to dissent from the
two judge panel reaffirming their own rubber stamp of Judge
DeAlmedia’s final order.
The facts and law clearly show that the Appellate Division
should have granted considering reconsideration is generally
required when: “1. the court has expressed its decision based upon
a palpably incorrect or irrational basis, or 2. It is obvious that the
court either did not consider, or failed to appreciate the
significance of probative, competent evidence.” See example,
Granata v. Broderick. 446 N.J. Super. 449 (2016).
The appellate division decision to affirm Judge DeAlmeida
is obviously palpably incorrect, obviously irrational; and it is
obvious that the decision failed to consider the relevant facts,
failed to consider the procedural history, failed to apply existing
case law, and failed to apply the correct standard of review.
For the most part, the appellate division decision rubber
stamps a judicially created parade of horribles through what has
become a cliche reference to Rule 2:11 -3(e) (1) (E) “we find
insufficient merit in these arguments to warrant further discussion
in a written opinion...”
It is as if the decision went out of its way to distort the
facts and procedural history for its own benefit, and not in the
interest of justice.
The Appellate Division owed no deference to the tax
court’s interpretation of the law, and therefore to the extent a de

Appendix A12

nova review was required, the rubber stamped decision should be
reversed. (Citation omitted.)
As the record shows, the facts and law clearly require a
ruling in favor of this party. If the appellate division misplaced
some pleadings as they alleged, the court should have asked that
the matter be re-briefed, considering the considerable amount of
time that transpired from the filing of the appeal to the decision at
issue.
The following points presented in the motion for
reconsideration show the parade of horribles in effect created by
the judiciary and that should not be tolerated under the New Jersey
Supreme Court decision in General Motors Corp. v. City of
Linden. 143 NJ. 336 (1996) and the United States Supreme Court
decision in National Private Truck Council v. Oklahoma Tax
Commission. 515 U.S. 582 (1995). Neither of those cases were
absolute in their holdings but with exceptions, and this case shows
that New Jersey does not provide adequate remedies based on the
true facts and true procedural history of this matter.
Point 1 - With all due respect, perhaps it is fair to say that
basically the only fact the Appellate Division rubber stamp of
Judge DeAlmeida decision was that plaintiff-appellant was the
defendant in the initial cause of action before the Somerset County
Tax Board.
Based on the record below, the rest of the court’s decision
is either a false or blatant distortion of the facts, procedural history,
and the applicable law. The record supports this as follows:
1A. False and Distorted fact: “Plaintiff was once the
beneficiary of a farmland tax assessment because the property
taxing authority believed he harvested maple syrup on his Bernards
Township Property.”
1B1. Truth: Plaintiff received farmland assessment under
New Jersey law because the taxing authority had inspected the
property on multiple occasions, and the farming activities included
maple sap harvesting, Christmas trees, chicken eggs, was under a
United States Government contract that had continuing obligation,
and also since entered into another United States Government
contract.
1B2: Truth: The decision’s reference to the word
“believed” is a distortion of the word’s meaning, as in actuality,

Appendix A 13

the taxing authority had been inspecting the property all along as
part of the farmland application process, and admittedly filed a roll
back complaint in error because it was not based on a change in the
land use, but only for lack of proof of income. It is not clear why
the Appellate Division created its own fiction other than relying on
recanted and perjured testimony of the current Bernards Township
Tax Assessor. (When Bernards had a competent Assessor, they at
least employed an expert Forester as on numerous occasions as the
assessors that “value homes” have no substantive knowledge of
farming activities. Pa 41 -43)
2A: False and Distorted Fact: County board of taxation
initiated a complaint, pursuant to N.J.S.A. 54:4-23.8 to invoke
rollback taxes for 2013 and 2014 due to the property’s change in
status”
2B.1: Truth: The Tax assessor, in violation of New Jersey:
statutory law, initiated a rollback tax complaint under his and
Martin Allen’s own admitted mistaken theory that because plaintiff
failed to provide proof of income, the township was automatically
entitled to roll back taxes. N.J.S.A. 54:4-23 does not allow for a
rollback complaint when there is no change in the property’s status
as Centrelli admitted here, and his denial of farmland assessment
based on insufficient income shows that.
2B.2: Truth: The subject year at issue was the year Judge
DeAlmeida was personally informed by New Law Advisory No.
2013-11, Issued May 8, 2013, that noted the law raised the
minimum gross sales from $500 to $1,000 for years for tax years
commencing with tax year 2015, the transition year at issue in this
case, and that lack of proof of income because of the raised
threshold does not justify rollback. Judge DeAlmeida may have
been negligent in not advising judges and staff of the new law as
the Advisory on page 4 asked of him. (PA 3-4)
2B.3: Truth: Before the County Tax Board, Martin Allen
admitted he was not aware of case law that failure to provide proof
of income did not entitle the township to automatic roll back taxes.
(Even the Board President had to take a recess to look up the case
that Barth cited to show Allen was in error.)
2B.4: Truth The tax assessor’s own form shows there was
no change in farming activities as the tax assessor denied farmland

Appendix A 14

assessment on the basis of income, not a change in the property
status.
3A: False and Distorted Fact: “Plaintiff was given notice”
3B: Truth: Plaintiff was not given notice that comported
with even the most minimal due process.
1. Tax Board lacked subject matter jurisdiction over Tax
Assessor’s rollback claim that was solely based on farmer not
providing proof of income when tax assessor indicated there no
change in the agriculture use of the subject property.
2. Township tax assessor did not have statutory or actual authority
to file a false roll back complaint that was based on incorrect
application of law.
3. Centrelli caused a defective complaint form to be sent to Barth
(the form sent had only page 1 of a 2 pages of the form, and that
upon questioning, Centrelli said page 2 was “only the
instructions”, except that if Centrelli was qualified, he would have
known the statute changed the days of notice required .)
4. Complaint form was defective as it did not indicate the basis of
the roll back. (This defect is consistent with Martin Allen’s
admission before the county tax board that he had a mistaken
belief that no proof of income automatically entitled a township to
roll back taxes.)
5. Mailing of complaint form only gave Barth 10 days to be aware
that the Tax Board was holding what they considered to be a
hearing, when 15 day notice was required by statute
6. The Tax Board improperly noticed meeting was scheduled the
day after a National Holiday that was prejudicial to Barth as the
County Board administrator admitted as he said he had placed the
complaint form in the mail on his way out the door to go on
vacation, and as he admitted he was not around to answer
questions until the scheduled day of the “hearing” why the
defective “notice” did not comport with the number of days
required under statutory law.
7. According to the New Attorney General, the County
administrator was not authorized to reschedule the date of the
defectively noticed meeting.
8. The county administrator who called on the morning of the
scheduled meeting indicated (he called because he admitted the
complaint form did give the adequate “notice” as required by law),
he would instruct the tax assessor to provide the landowner the

Appendix A15

documentation the tax assessor expected to rely upon at the
“hearing” (as otherwise the roll back complaint was illegally based
on no proof of income as the town admitted there was not a change
in land use.)
9. The township did not provide the documents that the
administrator indicated the township would provide (The
administrator had initiated its call to reschedule the hearing on the
same morning the hearing was scheduled. The Tax assessor later
testified that photograph evidence he had previously taken of the
property was destroyed, but then again the Centrelli admitted he
lied before the county tax board.)
10. Note: as the Township incorrectly filed a complaint for
rollback and admitted it was incorrectly based on lack of income,
and not that the land use changed, the law does not require a party
to establish a defense to a unknown-non-existing claim that
Centrelli admitted did not exist, when Centrelli subsequently
admitted he lied to the county tax board in his testimony, to
compensate for the fact that he and Martin Allen filed the rollback
on a misunderstanding of the law.
4A: False and Distorted Fact: Plaintiff was given a hearing
4B: Truth: The Court appears enamored with semantics of
catch words like notice and a hearing, when in actuality, not only
was plaintiff not given adequate notice, Plaintiff was not give an
adequate hearing that comported with even the most minimal due
process.
1. Tax Board would not rule on Barth’s initial motion that
Township failed to state a claim when Martin Allen started the
“hearing” with the statement that the township was automatically
entitled to roll back for lack of proof of income, and in his mind,
the rest was “smoke and mirrors.” (His client admitted there was
no change in land use from farming.)
2. Board would not permit voir dire questioning of tax assessor
qualification as an expert witness, as the Board chair claimed all
tax assessor are qualified to testify as an expert, that shows that the
board was equally confused as Martin Allen on the law for roll­
back, in that while a tax assessor may be qualified on issues of
valuation, the issue of roll back as a matter of law is not based on
valuation, and the tax assessor admitted on cross examination he
was not qualified to testify on farming activities or USDA
contracts, at which point the board president granted this party’s

Appendix A 16

motion to strike the tax assessor’s non-valuation testimony as net
opinion. Applying the recent New Jersey Supreme Court decision
In Re Accutane Litigation (citation omitted), because Centrelli was
unqualified to testify about roll back, the decision of the County
Tax Board is null and void.
3. The Board would not allow an objection to farming questions
Martin Allen tried to pose to Centrelli on redirect. The objection
was based on the fact that since Martin Allen only asked valuation
questions on direct examination of Centrelli (consistent with his
mistaken theory of lack of income only and roll-back), and Barth
did not ask Centrelli farming activity questions on initial cross
examination, that Allen was not allowed to ask Centrelli farming
questions on re-direct, when as Martin Allen stated, he forgot to
ask farming questions on direct examination. (His mistake is
consistent that he improperly prepared for the hearing because he
misunderstood the law on the elements of a roll-back complaint.)
4. Not only was discovery not permitted, but the tax assessor stated
he had taken pictures of the subject property during his last
inspection, but that the photos were destroyed (spoliation of
evidence was prejudicial to the landowner).
5. Board changed the burden of proof where as a matter of law, as
the tax assessor bore the burden to prove the change of use, and
admitted he was not qualified to testify about farming, and he later
admitted he lied on the witness stand, and stated there had not been
any change in the land use but that the property was still being
actively farmed).
6. It became obvious of Centrelli’s incompetence when he testified
maple sap harvesting took place in the summer time, although
Centrelli later admitted he lied about his made up testimony before
the tax board on farming, that was consistent with someone who
erroneously filed a roll back on a misunderstanding of the law.
7. Board President held up his hands to deny objections to avoid
being recorded on the County recording device; the tax boards
recording that was subsequently erased, deleted, destroyed or
hidden by the county administrator.
8. Tax assessor failed to meet his burden of proof for roll back
taxes as his testimony for anything other than valuation was
stricken as net opinion, and valuation was not an element for roll­
back taxes when tax assessor subsequently admitted he made up

Appendix A 17

lies before the tax board, and admitted that the property was still
being actively farmed.
9. The Board administrator deleted, erased, destroyed or hid the
recording of the hearing
10. Centrelli subsequently admitted he lied before the tax board
and neither he nor Martin Allen communicated that to the Board to
correct the record.
11. The County Tax board granted the roll back complaint even
though there was no basis in fact or law, and was based on an
admitted incorrect application of law and an admitted perjured
testimony.
12. The fact that the tax Board President and the Principal of the
law firm representing the tax assessor were co-workers on County
Boards shows a conflict of interest when here there was no basis in
law or fact to approve the roll back. The pending New Jersey
Supreme Court decision in Piscitelli v. City of Garfield Zoning
Board of Adjustment, certification granted 235 N.J. 392 (2018)
may give more guidance on this area.
13. Note: Centrelli also admitted he violated the law when stated
he subsequently reached an agreement with the county tax board
administrator on how to deal with Centrelli’s mistake in issuing a
determination of the farmland assessment of the subject property
the following year. One can hardly be expected to appeal such a
determination to the board that is supposed to handle the appeal
when the board advised the tax assessor how to violate the law for
issuing late assessment determinations.
Kangaroo Court: The New Jersey Supreme Court has
previously described a kangaroo court in terms of a mock court in
which principles of law and justice are disregarded or perverted, a
court characterized by irresponsible, unauthorized, or irregular
status or procedures. (Citation omitted.) The kangaroo court
proceedings in the county tax board may be a more subtle but no
less real deprivation of due process of law because from the list of
horribles listed above, other than semantics, this party did not
receive any notice or fair hearing or minimal due process
protections. Not to read into the court’s decision, but it does seem
that if on reconsideration the court agreed the county tax board
hearing was a deprivation of basic due process rights, that plaintiff
would be entitled to summary judgment in the tax court, and much

Appendix A 18

of the tax court proceedings were avoidable. Accordingly, the list
of horribles noted above support reconsideration.
Tax Court Procedures were as Unconstitutional Similar to
the Somerset County Tax Board: Just as the decision engaged in
semantics that receipt of a defective piece of paper is a “notice”
and a meeting plagued by mockery of the law is a “hearing,” so is
the semantics that because a party can file a complaint in Tax
Court that party received the right to an appeal. Accordingly, since
a party cannot appeal a tax board determination under Judge
DeAlmedia and this court’s opinion, one could conclude that the
applicable tax court procedures are as unconstitutional as the
county tax board. Although a cursory review of the tax board
history should have been an end to this matter through plaintiffs
motion for summary judgement, the continuation of the record that
shows that the parade of horribles created by the Judiciary requires
a grant of the Motion for Reconsideration as follows:
5A. False and Distorted Fact: “he refused to permit an
inspection of his property.”
5B. Truth: The taxing authority was allowed to inspect and
did inspect the property on numerous occasions in its normal
farmland inspection cycle. When the roll back was initiated, the tax
assessor never claimed he was denied the right to inspect the
farming activities. The tax assessor testified he did inspect the
property during the roll back meeting, and later admitted he lied
about what he saw, even after his testimony on non-valuation was
stricken as net opinion.
That inspection of the property is quite different than the
taxing authority sending a separate threatening letter to residents
that unless you let the government into your house, the taxing
authority will assume a resident remodeled their house without
permits. Even the New Jersey Department of Treasury found the
taxing authorities letter offensive and in violation of Civil Rights.
It is not clear if the decision at issue here is applying the
old riddle what came first, “the chicken or the egg,” as here for roll
back, what comes first is whether the tax assessor has to prove
whether a property has a change in use, and then file a roll-back
complaint, or file a roll back complaint because the tax assessor
didn’t do their due diligence, and then find out whether the
property has a change in use. For roll-back as here, if the tax
assessor files a roll back complaint on the ignorance of the law that

Appendix A 19

lack of income alone does not justify roll back, the tax assessor
loses when the tax assessor knew all along that their was no change
to the land use.
6A: False and Distorted Fact: plaintiff remained
recalcitrant in discovery
6B.1: Truth: Judge DeAlmedia was recalcitrant in not
applying the court rules as Judge DeAlmeida specifically told
counsel Martin Allen during a telephone conference not to provide
Barth with a copy of his discovery order that was yet to be issued,
and neither Judge DeAlmeida, nor his staff, nor the Tax Court, etc.
provided a copy of Judge DeAlmeida’s discovery order to Barth
until Barth complained at a later date he had not received the
Order, and then many of the dates set forth on the Order had
already passed with prejudice to Barth.
6B.2: Truth: It appears Judge DeAlmeida did not provide
Barth with a copy of his discovery order until after some of the
dates had already past, because as Judge DeAlmeida said, he holds
it against those who appeal his orders on an interlocutory basis.
6B.3: Truth: Judge DeAlmedia ignored the court rules by
refusing to order Bernards initial counsel of record to appear and
answer why he did not file a motion for substitution of counsel as
required by the court rules, as to the extent that counsel of record,
abandoned the case and refused to cooperate, Barth’s rights to
pursue discovery was prejudiced (even though Centrelli already
admitted that any exculpatory photos he had were already
destroyed).
6B.4 Truth: Bernards counsel Martin Allen was
recalcitrant in not following the court rules. Martin Allen and his
law firm was not counsel of record and yet sent Barth a discovery
request, and even noting in his own letter that he and his law firm
was not counsel of record but attempted to threaten Barth if Barth
did not respond to their discovery request. As noted above,
Bernards counsel of record abandoned the case and indicated he
refused to cooperate in any discovery that prejudiced Barth.
6B.5: Truth: Martin Allen then attempted to violate Judge
DeAlmeida discovery order by attempting to deviate from the
substance of Judge DeAlmeida’s order, that is, Allen advised his
client to bring people to an inspection who were not authorized in
Judge DeAlmeida’s Order. Martin Allen, even having a copy of

Appendix A 20

that Order well in advance of Barth, did not ask Judge DeAlmeida
to modify his order.
6B.6: Truth: Nothing in the case history or Court Opinion
suggests that Barth had an obligation to respond to an attorney’s
discovery request whose firm was not the attorney of record of the
case.
6B.7: Truth: Bernards Tax Assessor recanted his testimony
before the Somerset County Tax Board, and based on Centrelli’s
admitted perjury before that Board, Barth asked Martin Allen to
refresh what interrogatories were still required. (Pa 45).
7A: False and Distorted Fact: Plaintiff... refused to permit
an inspection as ordered.
7B.1: Truth: Plaintiff did not receive the discovery order as
required by court rules because Judge DeAlmedia intentionally
undertook it upon himself to ensure that plaintiff not receive a
copy of the order in a timely basis so that Plaintiff could not file an
interlocutory appeal.
7B.2: Truth: Judge DeAlmeida’s Order specified who
could conduct the discovery and Martin Allen attempted to have
people to join the inspection who were not authorized in Judge
DeAlmeida’s Order. Martin Allen did not seek relief to modify the
Order.
8A: False and Distorted Fact: Even though he had already
been accommodated
8B.1: Truth: Township did not want to inspect the property
any earlier because of the requirement for the tax assessor’s
purported obligation to certify certain matters. The tax assessor and
Martin Allen indicated they could not inspect the property earlier.
8B.2. Truth: Judge DeAlmedia’s had a mistaken and
misplaced theory that Barth should act as the Township expert and
witness.
Substitution of Counsel - It is not clear the decisions rubber stamp
on this matter as Judge DeAlmeida provided no rationale basis for
granting the substitution considering no counsel of record made a
motion for substitution that was served on Barth. The following
supports the reconsideration:
1. Counsel of record abandoned the case and the rules require the
court to order counsel to appear to answer why counsel abandoned
the case.

Appendix All

2. Counsel looking to be substituted is required to file a motion if
no consent, and counsel of record never filed such a motion.
3. Martin Allen, whose law firm was not counsel of record,
attempted to threaten plaintiff that if plaintiff did not consent to
substitution, Martin Allen, who was not counsel of record would
file a motion for substitution The record supports that Martin Allen
who was not counsel of record made an exparte motion to Judge
DeAlmedia for substitution of counsel.
4. Martin Allen conceded that his client filed a roll back complaint
on a misunderstanding of the law and Martin Allen admitted he
was wrong as the roll back complaint was only based on no proof
of income, not change of use of land.
5. Martin Allen on a mistaken understanding of the law attempted
to proffer an unqualified witness, whose witness opinion was
struck as net opinion
6. Martin Allen’s client admitted he committed perjury before the
county tax board and Martin Allen did not ask that the record be
updated.
7. Martin Allen client negotiated a deal with the County Tax Board
on how Centrelli could violate the law in a future period that
impacts the current case.
8. Martin Allen advised his client to attempt reach settlement with
Barth that included as part of settlement offer that Barth agree to
allow Centrelli to violate the law in a future period
9. Martin Allen and the law firm he was associated with was not
counsel of record and engaged in ex parte conversation with the
Tax Court chambers for substitution of counsel
10. This is a pattern as in a previous matter that Barth had with the
County Tax Board, Martin Allen started out the “hearing’ that he
and the president of the Board were talking about the case before
the hearing.
11. Martin Allen and the law firm he was associated with was not
counsel of record and sent Barth harassing letters when another
law firm was the counsel of record
12. Martin Allen attempted to have his client violate Judge
DeAlmeida’s discovery order.
13. The law firm that Martin Allen worked for had a conflict of
interest with the County Tax Board President.

Appendix A 22

CONCLUSION
For the foregoing reasons, the undersigned requests that the Court
hear this matter or certify the matter for review by the United
States Supreme Court.
Respectfully submitted,
/sMichael S. Barth/s
C:
N J. Attorney General
DiFrancesco Bateman
Michelline Capistrano Foster 18 Mountain Blvd.
Warren, NJ 07059
25 Market St.
Trenton, NJ 08611

Appendix A 23

May 25, 2019
Michael S. Barth
P.O. Box 832
Far Hills, New Jersey 07931
(917) 628-6145
New Jersey Supreme Court
R. J. Hughes Justice Complex
Supreme Court Clerk’s Office
P.O. Box 970
Trenton, New Jersey 08625-0970
Re: Michael S. Barth v. Township of Bernards et al., Appellate
Division Docket No.: A-0004118-16T4, Supreme Court Docket
No.
Dear Honorable Justices of the New Jersey Supreme Court,
Please accept this letter pleading in response to
defendants’ opposition to the Petition for Certification in the above
referenced matter. Defendants’ misleading opposition actually
gives more reasons to grant the Petition.
As to Mr. Allen’s reference to whether he or Mr. Centrelli
behaved improperly in this matter, for one, neither provides an
affidavit to the contrary, and moreover neither deny the facts that
were presented, rather it appears Mr. Allen’s proffer is based on
the legal theory that exists only in his mind. For example, he does
not deny Mr. Centrelli recanted his testimony before the county tax
board, but rather it appears in his mind, perjury is allowed before
the county tax board under New Jersey common law. Mr. Allen
does not deny he entered into ex parte conversations with tribunals
on the merits, rather in his mind he behaved properly because it
seems this has become his common practice. Mr. Centrelli did not
deny he conspired with the County Tax Administrator to deprive
farmer of subsequent farmland assessment because of Centrelli
failure to comply with the state statute, rather in Mr. Allen’s mind,
this is legal because Centrelli admitted his enterprise during
settlement discussion. However, case law is clear, Centrelli’s
admission of an enterprise with a county tax board representation
during settlement discussion is not something that should be
withheld from the courts to extent it was made “buy silence” of his
failure to comply with statutory law and therefore to obstruct

Appendix A 24

justice. See Notes N.J.R 408 Settlements Offers and Negotiation,
Obstruction of Justice. Ironically Mr. Allen goes to lengths to ask
the Court to relax the rules for his material mistakes and errors,
when as his client admits he filed a false claim for roll-back, and
recanted his testimony, and stated that the property had been
properly farmed all along, shouldn’t Mr. Allen ask the Court to
reverse the County Tax Board decision for the efficient
administration of the Court system?
The same seems to be true where the New Jersey Attorney
General attempts to weigh in, or mislead the court in this area. It is
not clear whether the misleading proffers are the result of
additional new individuals, writing the state’s brief, or since even
Judge DeAlmedia indicated counsel represented the Division of
Taxation, that has supervisory and other responsibility over both
the county tax board individuals and Mr. Centrelli, whether the
New Jersey Supreme Court should ask a separate department
within the New Jersey Attorney General Office to brief the matter.
The Attorney General attempts to mislead the court in their
brief seems to go to excessive bounds. For example, surprisingly
the state admits in its brief that the “notice” that farmer received
was deficient, however, the state claims that a rescheduling of a
“hearing” cured all the defects, while at the same time they admit
in their brief that the Treasury department indicated the form of
notice was defective, and that the defective form was never
corrected, and also that the Administrator had no power to
reschedule the hearing to the benefit of Centrelli and Martin Allen.
Moreover, the state seems to go to great lengths in its brief
to attempt to mislead the court on the sequence of events on the
county’s tax board distorted process on the acceptance on Mr.
Centrelli as an “expert”. Nowhere does the record say that the
Board accepted Mr. Centrelli as an expert on a “wide range of
issues,” because all the Board did was to accept Centrelli as an
“expert” It wasn’t until on cross examination of redirect when
Barth made a motion to strike Centrelli’s testimony as net opinion
on farmland assessment that the Board struck Centrelli’s testimony
as net opinion that Barth had the first opportunity to ask Centrelli
of his qualifications, as on Martin Allen’s direct testimony, he only
asked valuation questions, that was consistent with his mistaken
understanding that proof of income alone does not entitle a town to
roll back. As stated on numerous, Martin Allen stated his case

Appendix A 25

before the County Tax Board was based on lack of income alone
entitled Bernards to roll back. Moreover, what is notice that a
farmer was denied farmland assessment? When a farmer as here
received farmland assessment, that tax assessor signs off on the
form and sends the approval back to the farmer. Here as the record
shows, in October, 30, 2014, landowner received the first notice
that the farmland assessment was denied for not having proof of
income, and no other reasons related to farming activities.
(Plaintiffs Appendix filed April 30, 2019 Pal)That is consistent
with Centrelli’s recanted testimony that the property was properly
being farmed all along. The law does not allow Centrelli to file a
false roll back complaint before that on Martin Allen’s mistaken
theory.
Not surprising neither defendant ever states that Bernards
ever satisfied its burden of proof before the County tax Board, as
one would be hard pressed on Martin Allen’s admitted mistaken
tactics, filing a roll back on income only, failure to ask farmland
assessment questions on direct examination, his client’s testimony
stricken as net opinion as he admitted he was not qualified to
testify about farmland assessment activities, his client recanting his
testimony and stating the property was properly farmed all along,
his client saying “exculpatory” evidence (photos he alleged to have
taken) were deleted by a virus on his Township computer (the
Township having denied such a virus existed in an OPRA request),
failure to apply with the statutory notice requirement for a hearing,
failure to correct a defective roll back complaint form that was
admitted by the state defendants, failure to submit any evidence
into the record at the county tax board, the county tax board
erasing recording of the hearing so transcripts could not be made
(county administrator admitted he intended to record the hearing),
etc.
The rest of defendants’ objections don’t even deserve
merit.
Respectfully submitted,
/s Michael S. Barth/s
C:
Martin Allen, Esq.
Michelline Capistrano Foster, Esq.

Appendix A 26

Subject: RE: Bernards Township v. Barth, Filed on or about August
26, 2015
Date: Tue, 1 Sep 2015 08:56:25 -0400
From: Dave Centrelli <d.centrelli@bernards.org>
To: "REDACTED"
Cc: Robert Vance <Vance@co.somerset.nj.us>, Karen Leo
<KLeo@bernards.org>
Mr. Barth,
The second page is the instructions. Please find a copy attached.
David Centrelli, CTA
Assessor, Bernards Township
908-204-3082 Fax 908-766-1644
d.centrelli@bernards.org
—Original Message—
From: REDACTED
Sent: Tuesday, September 01, 2015 6:48 AM
To: Dave Centrelli; vance@co.somerset.nj.us
Cc: Township Committee; freeholdersoffice@co.somerset.nj.us
Subject: Bernards Township v. Barth, Filed on or about August 26,

2015
September 1, 2015
Dear Mr. Centrelli and Mr. Vance
Re: Bernards Township v. Barth
Yesterday I received a partial copy of your "complaint" filed on or
about August 26, 2015 on behalf of Bernards Township in the
above matter. This matter appears to be scheduled to be heard in
a few days at the Somerset County Board of Taxation on the day
after Labor Day, September 8, 2015.
Not certain your intent to file the last week of August before
Labor Day when many New Jerseyans are out of town. For
example, I received from you what appears to be only "Page 1 of
2" of a complaint form in the envelope from you. I called the New
Jersey Division of Taxation at 609.292.7975 to obtain a copy of

Appendix A 27

what the second page should constitute that appears you
omitted. Siry of the New Jersey Division of Taxation indicated the
section that handles that form was not in yesterday. Therefore I
could not obtain details what the second page you omitted from
the complaint might contain. Please let me know who might be
the counsel of record in this matter as will ensure they receive
copies of any future filings. In response to your complaint I
anticipate filing a complaint in United States District Court that
will include related claims outside the jurisdiction of the Somerset
County Board of Taxation including injunctive relief staying your
proceeding until applicable due process concerns are addressed.
Respectfully, Michael Barth REDACTED

Appendix A 28

Subject: Bernards v. Barth
Date: Mon, 07 Sep 2015 00:13:39 -0400
From: REDACTED
To: vance@co.somerset.nj.us, d.centrelli@bemards.org
Cc: townshipcommittee@bemards.org
Dear Mr. Vance,
Please accept this email to let you know that I have not heard back
from your office on the question why you are not abiding by the 15
day notice requirement codified over 23 years ago under N.J.S.A.
54:4-63.12 related to the complaint your office mailed to my
address. I left a voice mail message at your office on Friday
September 4, 2015 based on the telephone number you provided.
This 15 day and not 5 day notice requirement appears clear based
on page 463 of the Handbook for New Jersey Assessors where it
also appears clear that both you and Mr. Centrelli received. (Pages
1-3). Accordingly please confirm you have a copy of that
Handbook.
This question arose when I received an envelope from your office
last week that had only 1 of a 2 page complaint signed by Mr.
Centrelli representing Bernards Township. Mr. Centrelli then
subsequently emailed me the “second page instructions” from a
form that is seemingly at least over a decade old. (Pages 4-5)
That page that Mr. Centrelli sent references a 5-day notice
requirement that according to information both you and Mr.
Centrelli should have received is no longer valid and was changed
to 15 days 23 years ago.
Please indicate whether you have any information to suggest that
the 15 day notice requirement as published in West digest is
invalid (Page 208-209 attached, partial citation omitted)(Page 6).
Presumably you also have access to the change in law approved
and effective January 18, 1992. (Page 7)
Please note I object to you conducting a hearing on this matter on

Appendix A 29

Tuesday 8, 2015 before the Somerset County Board of Taxation as
improperly noticed. It appears anything decided at that hearing to
my detriment is at a minimum null-and void
I also object in advance to allowing Mr. Centrelli to testify as an
expert in any capacity related to this matter.
I’ll copy by regular mail the Director of the New Jersey Division
of Taxation who has jurisdiction over tax assessors and the New
Jersey Attorney General’s office that represent the Judiciary that
has oversight over the Somerset County Tax Board.
My apologies on the brevity of this note but unfortunately the lack
adequate notice precipitates the sending of this brief note.
Michael Barth
REDACTED

Appendix A 30

Subject: Bernards v. Barth
Date: Mon, 12 Oct 2015 23:44:25 -0400
From: EMAIL ADDRESS REDACTED
To: vance@co.somerset.nj.us
Via Certified Mail 7012 3050 0000 5851 4214 (and email Mr.
Vance)
Michael Barth
PO Box 832
Far Hills, N.J. 07931
REDACTED
October 12, 2015
Mr. Robert M. Vance
County Tax Administrator
Somerset County Board of Taxation
27 Warren Street, 4th Floor
P.O. Box 3000
Somerville, New Jersey 08876-1262
Re: Bernards Township v. Barth
Dear Mr. Vance,
Please accept this letter in response to a hearing scheduled
Tuesday, October 13, 2015 in the above referenced matter
(Dl). Please note I am NOT in receipt of any proofs you indicated
I would receive from plaintiff in the above mentioned matter
currently scheduled to be heard a second time at 1:00 pm on
October 13, 2015, the day after a State Holiday - Columbus Day.
You may recall your promise from September 8th when you called
my cell phone and stated to me that Bernards Township would be
in contact with me concerning providing those proofs or evidence
in support of their complaint (albeit an incomplete
complaint). You may recall your call was in response to my
previously unanswered email and phone communications to your
office expressing concern about the hearing scheduled in this
matter that was improperly noticed according to N.J.S.A. 54:463.12 (please see attachments D2-D9).

Appendix A 31

That initial hearing September 8, 2015 (the day after Labor Day)
was improperly noticed according to NJ.S.A. 54:4-63.12 that
requires a 15 day notice.
You may recall I received an incomplete complaint form from your
office only 5 business days before that day-after Labor Day
hearing. You may recall that plaintiffs “complaint” only
contained “page 1 of 2”. In response to my email expressing
concern of the incomplete “complaint form” Mr. Centrelli sent me
an email including an attachment that in his words were “only the
instructions” (Please see attachment D6).
Those “instructions” Mr. Centrelli provided appeared based on a
law that was changed nearly 23 years ago (D8). Those instructions
as part of page 2 of his “complaint” referenced a five-day notice
requirement that was amended to 15-days.
Presumably Mr. Centrelli has now confirmed the change in law 23
years ago as it appears he may have had a colleague from another
township call Trenton to verify that changed based on information
I received from Trenton.
Your letter of September 24, 2015 I received from your office still
contains only a partial “complaint” (page 1 of 2 only) so
presumably the second page still contains “instructions” now
outlawed.
As this Board is probably aware, the New Jersey “Freeze Act”
found at NJ.S.A 54:3-26 is designed to prevent the abuse of the
tax court system and avoid unnecessary tax court appearances by
taxpayers. Otherwise, according to the statute and case law, a
taxpayer is being harassed by the tax assessor (citation omitted).
Calling at 10:47 am on the same day before a required court
appearance at 1PM as you did on September 8 does not erase the
fact that I was basically required to unnecessarily attend court that
same day.
You indicated the 14 day requirement was not met because you

Appendix A 32

were in a rush to go on vacation that August 28, the day of the date
of your initial letter.
While you were on vacation and your office was not responding to
my communications, I had to unnecessary prepare over a Federal
and State Holiday for a court appearance that was based on your
office working with Bernards Township to send an improper
“summons-and complaint” with a date scheduled contrary to
current law, and based on an outdated law.
I do appreciate your earlier guidance that Mr. Centrelli would be
providing his basis for his complaint. That guidance in theory
appears consistent with New Jersey decision law that the burden of
proof in this matter is on Bernard Township (citation omitted.)
That guidance appeared consistent with the New Jersey and United
States Constitution requirements of due process that thus far in non
existence in this matter from both the initial and continuing
defective “notices” and now the lack of proof you stated Mr.
Centrelli would provide.
In closing, please give me a call either indicating you will dismiss
plaintiff’s “complaint-with-prejudice” or alternatively, with all due
respect, please consider recusing yourself in this matter.
The law was ignored when the initial “notice” was sent and now
somehow your word is being ignored without explanation from
your office why no proofs were provided to me that you stated I
would receive when you last called me to reschedule this matter.
Alternatively please stay these proceedings pending interlocutory
appeal. As noted before I do not waive any counter-claims or
concede allowing Mr. Centrelli to testify as an expert in any
capacity.
A copy of this letter memo is being provided to the New Jersey
Division of Taxation and the New Jersey Attorney General’s office
that have jurisdiction over various aspects of the rules and
licensing governing this process.
Respectfully submitted,

Appendix A 33

Michael Barth
REDACTED
Attachments
Cc:
Mr. John Jay Hoffman
New Jersey Attorney General
Richard J. Hughes Justice Complex
25 Market Street
P.O. Box 080
Trenton, New Jersey 08625
Ms. Denise Szabo
Bernards Township Clerk
1 Collyer Lane
Basking Ridge, NJ 07920

Mr. Robert A. Romano
New Jersey State Treasurer
Department of the Treasury
P.O. Box 002
Trenton, NJ 08625-002

Appendix A 34

Via Email and Personal Delivery
October 27, 2015
P.O. Box 832
Far Hills, NJ 07931
REDACTED
Somerset County Board of Taxation
27 Warren Street, 4th Floor
P.O. Box 3000
Somerville, N 08876-1262
Re: Bernards and Centrelli v. Barth
Dear Commissioners,
Thank you for the opportunity to file this letter memo in support of
procedural and substantive arguments in opposition to the
Bernard's Township Complaint that was heard on October 13,
2015. The following summarizes the history and facts that conclude
why this matter should be dismissed with prejudice and relief
granted to Defendant:
Pre October 13, 2015 Hearing
1.
Plaintiff signed ^ ^ com plaint" dated August 25, 2015 for
roll-back taxes for 2014. (See inadequacybelow.)
2.
It is unclear whether opposing counsel guided plaintiff in the
filing of that complaint.
3.
Complaint mailed to defendant in violation of statutory
requirement of 15 days notice. N.J.S.A54:4-6.
4.
Defendant received the incomplete complaint 5 business days
before the originally scheduled September 8, 2015 hearing (Law
requires 15 days.)
5.
Defendant's Counsel blamed the County Board for that error.
(He passed that blame on the Board during the hearing of October
13.)
6.
Only page 1 of 2 of the Complaint was mailed to defendant.
(See insufficiency of notice below).
7.
Plaintiff subsequently emailed defendant the second page
stating the second page was 11 only the instructions".
8.

Those instructions, page 2 of 2 of the complaint, were based

Appendix A 35

(

on outdated New Jersey law. (See insufficiency of notice below.
Not clear if plaintiffs counsel if advised plaintiff in completing the
complaint was aware the errors contained within the complaint.)
Plaintiff failed to respond to plaintiffs inquiry whether
9.
defendant was represented by counsel in thismatter.
10. The County Board of Taxation contacted defendant a couple
hours before the scheduled hearing on September 8, 2015, to
reschedule the hearing until October 13, 2015. (See below where * ^
Fr eeze Act" designed to avoid multiple court appearances - citation
omitted.)
11. The Board stated during that same call of September 8 that
plaintiff would be in contact with defendant and provide defendant
with plaintiffs proof that plaintiff expected to rely upon at the
hearing. (See below as defendant never received that information
from plaintiff or his counsel.)
12. Plaintiff again caused the Board to send only the same page 1
of 2 of the complaint form - presumably page 2 of the complaint
form is still based on outdated law. (Date and signature of second
complaint was the same as the first.) (See insufficiency of notice
below.)
13. Plaintiff never provided defendant with the proofs that the
Board stated plaintiff would provide defendant (see insufficiencies
noted below)
14. On the day of hearing, a couple of hours before the hearing,
the Board stated in an email that defendant should reach out to
plaintiff for the proofs plaintiff expected to rely upon at the hearing
later that same day (the Board did not recommend defendant
contact plaintiffs counsel that had yet to be identified).
Hearing of October 13, 2015
15. The Commissioners agreed defendant could audio record the
hearing
16. Defendant objected to swearing in of plaintiff Centrelli as an
expert witness.
17. Defendant objected to the hearing based on the fact that
plaintiff had not provided proofs that the Board stated on
September 8 would be provided by the plaintiff to the defendant.
Defendant argued the hearing should be adjourned for the reasons
stated above.
18. Plaintiffs counsel stated that the only issue before the Board
was that since defendant allegedly did not provide proof of income

Appendix A 36

for 2014 that the Township Defendant was automatically entitled to
roll-back taxes and therefore plaintiff argued they didn't need to
provide any other proofs or evidence as instructed by theBoard.
19. Defendant cited South Brunswick Township v. Bellemead
Development Corporation, 8 N.J. Tax 616, (Tax Ct. 1987) that held
property was not subject to rollback taxes for not showing proof of
income. Defendant then asked that the complaint be immediately
dismissed.
20. The Board granted leave for defendant to file arguments on
the procedural and substantive aspects of this matter.
21. The Board admitted plaintiff Centrelli as an expert witness in
the matter over defendant's objection. The Board took the position
that Mr. Centrelli "as a tax assessor" had an absolute right to testify
before the Board on a broad and almost unlimited range of issues
as compared to Defendant's objection that the right for Mr.
Centrelli to testify as an expert was a presumption at best and not
absolute; and that Mr. Centrelli was not qualified to testify as an
expert shown in part by his lack of knowledge and expertise of the
areas at issue and that Mr. Centrelii should have first been asked
qualifying questions. (See below where Centrelli admitted he was
not an expert in the subject matter of his testimony.)
Direct Examination
22. Mr. Centrelii indicated he inspected the property during the
early fall of 2014.
23. Mr. Centrelli admitted the property was "previously" under a
"WHIP" program. (See judicial notice below)
24. Mr. Centrelli admitted he was not an expert in the
understanding of the WHIP program. (See below where WHIP
Program, Wildlife Habitat Incentive Program, was part of the 2008
United States Farm Bill.)
25. Mr. Centrelli admitted if the property was still under the
WHIP program that it would qualify for farmland assessment
without proof of income and therefore would not be subject to roll­
back taxes.
26. Alternatively, Mr. Centrelii admitted if proof of income and
nothing else was provided thin'the property would have qualified
for farmland assessment and not be subject to roll-back taxes.
(Thus admitting property actively engaged in farming activity.)
27. Mr. Centrelii indicated the farmland application also included
activities related to Maple Sap, Christmas Trees and Chickens

Appendix A 37

28. Mr. Allen made no motion to introduce any documentation
or exhibits into Evidence.
Cross Examination
29. Mr. Centrelli admitted he did not know what the maple syrup
season was in New Jersey or whether it was during the late winter
months outside the period he indicated he inspected the property;
and that he was not an expert on the subject (See Judicial notice of
United States Department of Agriculture below)
30. Mr. Centrelli admitted he was not an expert in Maple
Sap/Syrup practices.
See also below: Mr. Centrelli attempted to state he had
a.
seen {/taps" in maple syrup trees on other property in the summer
to support why he didn't see taps in the trees when he inspected the
subject property in early October. However If Mr. Centrelli was
actually an expert as defendant is in this area, Centrelli would have
known that leaving {/spiles" in maple trees outside the maple
season is actually harmful to the trees in that maple trees
{/heal themselves" by sealing up the holes where the spiles were
tapped into the trees once the taps are removed and that leaving
spiles in the tree year-round prevents the tree from healing itself or
sealing the tap holes; and therefore leaving spiles in a tree year
round only invites disease into the trees in the offseason through
any spiles left in the trees and that those taps in the trees cannot be
used in future periods anyway as they seal up with the tap in the
tree. If he was a qualified expert he would have also known
October is not the maple syrup season in New Jersey, (citations
omitted)
31. Mr. Centrelli admitted that even if Christmas Trees were
planted according to industry standards he would deny the
application. (See inadmissible net opinion discussion below)
32. Mr. Centrelli admitted he lost any photos that he took of the
property during that inspection in early fall 2014. (Thus Mr.
Centrelli eliminates information that what would have been helpful
to further show the land was devoted to agriculture purposes during
the period at question.)

Appendix A 38

33. Mr. Centrelli apparently could not identification chickens
free-ranging on the subject property.
Redirect
34. Defendant objected to attempts to enter new testimony by
plaintiff on redirect
35. Mr. Allen stated he forgot to go over "valuation" on his direct
examination. (Thus under rales of evidence plaintiff is precluded
from bringing up new items onredirect. Citation omitted.)
36. Mr. Allen attempted to elicit additional testimony about
whether Mr. Centrelli inspected the property a year later in 2015.
(Complaint was for 2014 and not 2015 and thus any such purported
testimony precluded as a matter of law - citation omitted.)
37. The Board upheld Defendant's motion to strike Mr.
Centrelli's testimony on redirect.
38. Mr. Allen made no motion to introduce any documentation
or exhibits into Evidence.
Inadequate Notice Due and Inadequate Opportunity to be
Heard: The New Jersey Freeze Act is designed to avoid harassment
of tax payers. Twice hailing someone into court because plaintiff or
plaintiffs counsel is unfamiliar with the applicable area of law is
basically harassment under New Jersey law. Further, notice must
be "adequate" to satisfy due process concerns under the New Jersey
State Constitution. Sending a "notice" for a hearing under the time
required by law is not adequate notice. Sending only 1 page of a 2
page complaint is not adequate notice. Sending a complaint with
references to laws that were changed 20 years ago is not adequate
notice. Promising proofs before a hearing and not providing them
is not adequate notice. Plaintiffs counsel and the Board
administrator blaming each other for the inadequacies described
above do not negate the fact that every aspect of plaintiffs case
translates to inadequate notice. Therefore the plaintiffs complaint
should be dismissed with prejudice.
Plaintiffs case failed during Mr. Allen's opening remarks: Mr.
Allen introduced his client's case by saying his entire case rested
upon the theory that if defendant did not show proof of income for
the year at issue, Township was automatically entitled to roll-back
taxes. Mr. Allen's theory has already been plainly rejected and the
case should have been automatically dismissed at the onset and
the-complaint never filed. See; South Brunswick Township v.

Appendix A 39

Bellemead Development Corporation, 8 NJ. Tax 616, (Tax Ct.
1987) (Not subject to rollback taxes even though failing to meet the
income requirements under the Farmland Assessment Act N.J.S.A
54-23
Plaintiff Failed to Meet the Burden of Proof and Showing:
The Burden of proof to establish a change in use so as to subject it
to rollback tax is on Bernards. NJ.S.A. 54:4-23.8. See Belmont v.
Wayne Tp., 3 N.J. Tax 382 (Tax Ct. 1981) Mr. Centrelii failed to
meet its burden of proof. He was admittedly not qualified in the
areas he attempted to testify in his direct testimony. His direct
testimony did not include any testimony on valuation. His re-direct
was prohibited under the rules of evidence and was stricken from
the record. He also admitted he was not qualified to testify on all
the areas his case subsequently relied. He admitted he was not an
expert in maple sap practices. His views on Christmas trees were
net opinion (see below). He also failed to produce photos he stated
he took of the property instead blaming a "virus" as the reason his
computer lost "any photos" that could have helped defendant prove
what Mr. Centrelii indicated he did not observe, for example free
range chickens on the property that Mr. Centrelii admitted could be
housed in a large horse trailer that is on the subject property. Mr.
Centrelli's testimony in effect was completely arbitrary in­
admissible net opinion.
Inadmissible Net Opinion: Plaintiff testified that even if the
Christmas trees on the subject were planted consistent with
industry standards he would not approve the spacing as part of a
farmland assessment application. Plaintiff already indicated he
wasn't an expert in any areas of the farm use, maple syrup,
Christmas Trees, Chickens, WHIP program. For example, he did
not know what was the maple syrup season to adequately inspect
the property for maple syrup activity. If Plaintiff takes a position
opposite to industry standards and offers no basis for his opinion,
his opinion is "net opinion" and further support he was not
qualified to testify and that he did not satisfy his burden of proof
required. Ironically Mr.
Centrelii made some seemingly bizarre references that unless
a Christmas tree is fully grown; it is not a Christmas tree if the tree
was still in the growing cycle.
Tax Assessor Was Not an Expert Witness - Presumption: Mr.
Allen fails in his attempts for the Board to presume Mr. Centrelii

)

Appendix A 40

has an absolute right to testify as an expert in any capacity before
this Board related to this case. Unfortunately for Mr. Allen's Little
Egg Harbor he cites does not stand for such a position (citing Little
Egg Harbor Tp. V. Bosnangue 316 N.J. Super. 271 (A.O. 1998).
While there might have been a presumption Mr. Centrelli could
testify as an expert on valuation, Mr. Allen did not ask Mr.
Centrelli any such valuation questions on direct examination nor
did defendant ask Mr. Centrelli such valuation questions on crossexamination. The commissioner's holding up to his hand like a
"stop- sign" to initially preclude objections to Mr. Allen questions
on re-direct does not negate the fact that Mr. Allen was not
permitted under the rules of evidence to ask valuation questions on
re-direct because he may have forgotten to ask those questions on
direct. (Citation omitted.) Unfortunately for Mr. Allen, his reliance
on Little Egg Harbor is moot because he didn't ask valuation
questions that might have been a basis for qualifying Mr. Centrelli
as an expert witness for valuation purposes only. Clearly the Board
Commissioner himself indicated that Mr. Centrelli admitted he was
not an expert on the areas he attempted to testify in this matter. The
Board upheld defendant's objection to Mr. Centrelli's testimony on
redirect and sustained defendant's motion to strike Mr. Centrelli
testimony on redirect.
"WHIP" Wildlife Habitat Incentive Program (Farm Bill of
2008) Satisfied Assessment Requirements: Mr. Centrelli admitted
that the property was subject to the WHIP program yet that he was
not familiar with the program. The Board can take Judicial Notice
that the "WHIP" program, is part of the United States Farm Bill of
2008. Under the Wildlife Habitat Incentive Program, farmers are
paid to complete AND maintain the work described under the
contract. Under the Federal Law, defendant had a duty to complete
AND also has a future obligation to maintain the work described in
the program during the year at issue that Mr. Centrelli indicated the
property was subject to WHIP program. While Mr. Centrelii was
not an expert in any aspect of this application (as counsel for
plaintiff did not ask valuation questions on direct); by Mr. Centrelli
own admission and judicial notice of the provisions of the farm bill
the property is still entitled to farmland assessment and not subject
to roll back taxes (with or without proof of income as Mr. Centrelli
testified).
Defendant should be Qualified to Testify as an Expert Should

n

Appendix A 41

the Board Reconvene on this matter: Mr. Centrelli misled this
tribunal on all aspects of farming he admitted he was not an expert.
Providing misleading testimony is not the role of an expert witness.
(Citation omitted.) A successful maple syrup season depends on
the proper combination of freezing nights with temperatures below
25 and warm day time temperatures around 40 degrees for sap to
run. See e.g.,_Penn State Environmental Law Review, 17 Penn St.
Envil. L. Rev 81. This is why Mr. Centrelli would not see maple sap
operations in October. A prolonged cold period below 25 degrees
is required to produce sap. Citation omitted. In New Jersey, sap
generally begins to flow in early February or around "President's
day". U.S.D.A. citation omitted.
Moreover, industry standards for planting Christmas trees are
for good cause, that is, they are spaced to be able to grow and
allow the Farmer to maintain the trees that grow from small to
large trees.
For the foregoing reasons, plaintiffs complaint should be
dismissed and based on the plaintiffs own testimony the defendant
should be granted farmland assessment and that the Board should
extend the time and grant that retro- active application of farmland
assessment.
The complaint filed by plaintiff appears for no reason other
than harassment. Accordingly defendant will file Tort Claim
Notice within 90 days allowed.
Michael Barth
Copy to:
Mr. John Jay Hoffman
New Jersey Attorney General RichardJ.HughesJusticeComplex
25 Market Street
P.O. Box 080 Trenton, N.J. 08625
Mr. Robert A. Romano New Jersey State Treasurer
Department of the Treasury
P.O. Box 002
Trenton, New Jersey 08625-002
DiFrancesco Bateman 15 Mountain Boulevard
Warren, New Jersey 07059

